               Opportunities Exist to Improve the Efforts of
               the Taxpayer Education and Communication
                Organization to Assist Small Businesses in
                  Understanding and Fulfilling Their Tax
                                Obligations

                                   August 2005

                       Reference Number: 2005-30-132




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                           August 25, 2005


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION



      FROM:                   Pamela J. Gardiner
                              Deputy Inspector General for Audit

      SUBJECT:                Final Audit Report - Opportunities Exist to Improve the Efforts of
                              the Taxpayer Education and Communication Organization to
                              Assist Small Businesses in Understanding and Fulfilling Their
                              Tax Obligations (Audit # 200330044)

      This report presents the results of our review of the Small Business/Self-Employed
      (SB/SE) Division Taxpayer Education and Communication (TEC) organization. The
      overall objective of this review was to evaluate the effectiveness of current efforts by the
      TEC organization to assist small businesses to understand and fulfill their tax
      obligations.
      In summary, the TEC organization has made significant progress in reaching out to the
      small business taxpayer community to educate small business taxpayers on their tax
      and compliance responsibilities. The TEC organization has performed its mission
      primarily by establishing partnerships with practitioners, trade associations, small
      business associations, and government agencies. The TEC organization has received
      credit for many accomplishments during Fiscal Year (FY) 2004. Among them was the
      completion of several burden-reduction initiatives involving various Internal Revenue
      Service (IRS) tax forms, the establishment of tax centers on major web sites, and the
      8,000 practitioner visits made during FY 2004 that helped to increase the number of
      electronically filed tax returns. However, there are areas where the TEC organization
      needs to improve.
      The TEC organization needs to do a better job of marketing its products, especially for
      those business taxpayers who are not served by the tax practitioner community. Well
      intended TEC organization products do not reach all of their intended audience, and
      some small business taxpayers may not be made aware of important information to
      assist them with their tax obligations. In addition, there was no continuity or consistency
                                           2

in situations where some third parties’ web sites linked back to the IRS web site.
In some instances, no link was provided for taxpayers to learn about their Federal tax
obligations while researching or browsing at a State government’s tax web site.
Also, we were unable to evaluate the TEC organization’s performance in fulfilling its
mission because the goals and measures established by SB/SE Division management
were not consistent with the mission statement established for the TEC organization at
its inception. Some of the goals and measures established for the TEC organization
were actually dependent on third parties for their measurement and accuracy.
We recommended the Director, Communications, Government Liaison and Disclosure,
review the marketing of TEC organization products on the Internet, and formulate a
strategy to increase their visibility. We also recommended the Director review the
budgetary and performance measures established for the TEC organization and
determine if they are still applicable to the stated mission of the organization.
Management’s Response: The Commissioner, SB/SE Division, agreed with our
recommendations. The SB/SE Division has established a new web services branch
under the Director, Communications, which will develop a strategy for enhancing the
utilization of TEC organization products on the Internet. The Commissioner, SB/SE
Division, has developed and published a Program Letter that lays out the mission of the
new TEC organization, which has been renamed the Stakeholder Liaison Field
Operations organization. The SB/SE Division is currently developing new measures
that will reflect the redefined goals and strategies of the Stakeholder Liaison Field
Operations organization. Management’s complete response to the draft report is
included as Appendix VII.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-3837.
        Opportunities Exist to Improve the Efforts of the Taxpayer Education and
      Communication Organization to Assist Small Businesses in Understanding and
                             Fulfilling Their Tax Obligations




                                                  Table of Contents


Background ............................................................................................... Page 1
The Taxpayer Education and Communication Organization
Has Made Significant Progress in Reaching Out to the
Small Business Taxpayer Community....................................................... Page 2
The Taxpayer Education and Communication Organization
Needs to Make Significant Improvements in Marketing Its Products......... Page 3
         Recommendation 1: .........................................................................Page 6

The Taxpayer Education and Communication Organization Needs
to Establish Goals and Measures That Are Reflective of Its Mission ........ Page 7
         Recommendation 2: .........................................................................Page 9

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 10
Appendix II – Major Contributors to This Report ....................................... Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Sample Interactive Calculator ............................................ Page 13
Appendix V – Excerpt From a Government Accountability Office
Report ....................................................................................................... Page 14
Appendix VI – The Taxpayer Education and Communication
Organization’s Budget and Performance Level Measures –
Fiscal Year 2005 ....................................................................................... Page 15
Appendix VII – Management’s Response to the Draft Report ................... Page 16
       Opportunities Exist to Improve the Efforts of the Taxpayer Education and
     Communication Organization to Assist Small Businesses in Understanding and
                            Fulfilling Their Tax Obligations

                                During the Internal Revenue Service’s (IRS) reorganization
Background
                                in October 2000, the Small Business and Self-Employed
                                (SB/SE) Division was created. This operating division was
                                formed to address various issues affecting small businesses
                                and self-employed taxpayers, such as filing tax returns and
                                paying taxes.
                                The group of taxpayers the SB/SE Division currently serves
                                includes self-employed individuals or other businesses with
                                total assets under $10 million. The profile of the SB/SE
                                Division’s taxpayer population as provided by the IRS is as
                                follows:
                                    •   Approximately 45 million taxpayers.
                                    •   About 33 million fully or partially self-employed.
                                    •   About 7 million small businesses with total assets
                                        under $10 million.
                                Within the SB/SE Division, three operating organizations
                                were created: Taxpayer Education and Communication
                                (TEC), Customer Account Services, and Compliance. The
                                TEC organization was designed to serve small businesses
                                and self-employed taxpayers primarily through efforts to
                                better educate them about their tax obligations.
                                This review was performed at the Brookhaven, New York,
                                IRS Campus1 and at the TEC organization Headquarters in
                                New Carrollton, Maryland, during the period August 2004
                                through May 2005. The audit was conducted in accordance
                                with Government Auditing Standards. Detailed information
                                on our audit objective, scope, and methodology is presented
                                in Appendix I. Major contributors to the report are listed in
                                Appendix II.




                                1
                                 The campuses are the data processing arm of the IRS. The campuses
                                process paper and electronic submissions, correct errors, and forward
                                data to the Computing Centers for analysis and posting to taxpayer
                                accounts.
                                                                                               Page 1
        Opportunities Exist to Improve the Efforts of the Taxpayer Education and
      Communication Organization to Assist Small Businesses in Understanding and
                             Fulfilling Their Tax Obligations

                                 The TEC organization was formed as a result of the IRS’
The Taxpayer Education and
                                 reorganization in October 2000. From the IRS web site
Communication Organization
                                 (irs.gov) the TEC organization is described as a segment of
Has Made Significant Progress
                                 the SB/SE Division that:
in Reaching Out to the Small
Business Taxpayer Community      …is a customer-focused organization that routinely will
                                 solicit information from taxpayers and external stakeholders
                                 concerning the needs and characteristics of its customers.
                                 TEC will implement its programs based on that feedback
                                 mechanism and will continuously research and analyze
                                 taxpayer trends to ensure that products and services are
                                 tailored to meet the needs of SB/SE taxpayers. TEC also
                                 will partner with other government agencies, state and local
                                 entities to provide one-stop assistance.
                                 The TEC organization has developed channels for
                                 communicating with over 75 percent of SB/SE Division
                                 taxpayers through practitioner and payroll associations. It
                                 also provides tax law education and information on IRS
                                 policies, programs, and procedures through IRS Tax
                                 Forums, conferences, trade shows, Practitioner Forums, Tax
                                 Talk Today,2 CD-ROM, and video presentations. In 2002,
                                 the TEC organization was named the Small Business
                                 Administration’s Agency of the Year for its outstanding
                                 progress in creating an effective education and compliance
                                 assistance program for small businesses and the
                                 self-employed.
                                 The TEC organization was credited with the following
                                 accomplishments during Fiscal Year (FY) 2004:
                                     •    TEC organization employees made more than
                                          8,000 practitioner visits during FY 2004, which
                                          resulted in a 25 percent increase in the number of
                                          electronically filed tax returns.



                                 2
                                  Tax Talk Today is a live Internet program co-sponsored by the IRS
                                 and L&M Production Design Group featuring tax experts, professionals,
                                 and top representatives from the IRS. Each program features
                                 discussions, real time interaction, and the opportunity for viewers to
                                 participate in the discussion by calling, emailing, or faxing in questions
                                 directly to the studio.

                                                                                                   Page 2
        Opportunities Exist to Improve the Efforts of the Taxpayer Education and
      Communication Organization to Assist Small Businesses in Understanding and
                             Fulfilling Their Tax Obligations

                                    •   The TEC organization was instrumental in securing
                                        hundreds of tip and central withholding agreements.
                                    •   The TEC organization established tax centers on
                                        major IRS partners’ web sites that significantly
                                        increased the SB/SE Division’s outreach potential.
                                    •   The TEC organization made significant
                                        accomplishments in completing several
                                        burden-reduction initiatives involving various IRS
                                        tax forms.
                                 In October 2004, the SB/SE Division offered current TEC
                                 organization employees an opportunity to volunteer to
                                 return to Revenue Officer, Revenue Agent, or Tax
                                 Compliance Officer positions within the SB/SE Division.
                                 More than 200 employees volunteered and, as a result, the
                                 organization has lost approximately 130 staff members
                                 (TEC Specialists and senior management) as of
                                 February 2005. This loss of staffing will affect the TEC
                                 organization’s capability to reach the small business
                                 taxpayer community both now and in the future. However,
                                 the TEC organization has an opportunity to continue to
                                 reach many small business taxpayers despite this loss of
                                 staffing with some improvements to its practices and
                                 strategies.
                                 The TEC organization can do a better job of marketing its
The Taxpayer Education and
                                 issue and industry-specific products that are currently
Communication Organization
                                 available to its customers. While the TEC organization has
Needs to Make Significant
                                 worked closely with the Compliance operating unit to create
Improvements in Marketing Its
                                 these products, many of them are not easily or readily
Products
                                 located by an ordinary taxpayer.
                                 To accomplish its mission, the TEC organization has relied
                                 heavily on the partner relationships it has established with
                                 various stakeholder groups. The decision to work in this
                                 manner was made during the formation of the TEC
                                 organization as the result of a study done for the IRS by the
                                 management consulting firm Booz-Allen & Hamilton. The
                                 study showed that 73 percent of U.S. Individual Income Tax
                                 Return (Form 1040), Schedule C (Profit or Loss from
                                 Business) filers (self-employed individuals) used a preparer
                                 to complete their tax returns. Based on this information, a
                                                                                       Page 3
  Opportunities Exist to Improve the Efforts of the Taxpayer Education and
Communication Organization to Assist Small Businesses in Understanding and
                       Fulfilling Their Tax Obligations

                           decision was made to leverage the limited resources of the
                           newly established organization by using its external
                           stakeholders as distribution channels to the small business
                           taxpayer community.
                           As a result of these partnerships, much of the TEC
                           organization’s efforts have gone towards working with
                           practitioners and small business organizations to identify
                           systemic problems, provide liaison activities at the national
                           and local level, and build a curriculum of basic educational
                           products. This has resulted in some of the accomplishments
                           noted previously.
                           The Internet has revolutionized the IRS’ ability to serve
                           taxpayers and their representatives. The IRS has used the
                           Internet to meet taxpayer needs, provide better service, and
                           reduce taxpayer burden. The IRS web site is one of the
                           most frequently visited sites in the world. In recent
                           testimony before the House of Representatives, the IRS
                           Commissioner stated that the small business web site
                           contained about 10,000 pages of content arranged by major
                           industry groups and major tax areas. In January 2005, the
                           site had 1.7 million visitors, which was more than double
                           the number from January 2004.
                           However, during our review, we found the average taxpayer
                           would not be able to easily locate information on a tax
                           question or problem without some Internet familiarity or
                           research experience. As an example, an excellent
                           construction industry guide that answers many questions
                           regarding payroll tax issues required us to access six
                           different web pages before we could view the actual
                           document. We also found there was no consistency
                           regarding links provided by various State agencies to the
                           IRS web site. For example, in the area of cosmetology, the
                           various State licensing web sites did not provide a link to
                           the IRS web page that also contained important Federal tax
                           information for cosmetologists.
                           Tax professionals have their own link into the IRS web site.3
                           They also have the advantage of either a basic knowledge of

                           3
                             Tax professionals use the IRS’ Internet web site
                           irs.gov/taxpros/index.html for tax information and news.
                                                                                      Page 4
  Opportunities Exist to Improve the Efforts of the Taxpayer Education and
Communication Organization to Assist Small Businesses in Understanding and
                       Fulfilling Their Tax Obligations

                           the subject area they are investigating or experience in
                           researching tax questions on paper and the Internet.
                           However, the IRS’ own research has shown that
                           approximately 25 percent of the small business taxpayer
                           community does not use a practitioner.
                           Taxpayers should be able to locate the information they
                           need or find answers to the questions they have in a quick,
                           user-friendly manner. This reduces taxpayer burden and
                           provides better service to all taxpayers.
                           We have located a new and innovative product that could
                           assist the TEC organization in educating taxpayers, as well
                           as some other products and areas that did not have sufficient
                           coverage in regards to taxpayer education. These products
                           and areas are:
                               •    Newer and innovative Internet products should be
                                    considered for use by the TEC organization on the
                                    IRS web site. As an example, an interactive
                                    calculator was developed for the Office of Personnel
                                    Management to assist Federal employees in making
                                    decisions regarding contributions to a Flexible
                                    Spending Account.4 The calculator enables the
                                    employee to estimate the amount of tax benefit (both
                                    Federal and State) that he/she would receive from
                                    their contributions (see Appendix IV for a sample
                                    interactive calculator). A similar calculator that
                                    would estimate future tax liability would be
                                    beneficial to those taxpayers who are exploring the
                                    decision to start their own business.
                               •    Greater marketing efforts are needed in regards to
                                    the franchising community. Statistics indicate that
                                    this is an area that has seen increased participation
                                    by taxpayers in the past few years. Our review could
                                    not identify any discussion of Federal tax obligations
                                    or links to an IRS web site that would cover that
                                    topic in the franchise web sites we visited.



                           4
                            A Flexible Spending Account is an account set up by an employee
                           with pre-tax dollars to pay for certain out-of-pocket medical expenses.
                                                                                            Page 5
  Opportunities Exist to Improve the Efforts of the Taxpayer Education and
Communication Organization to Assist Small Businesses in Understanding and
                       Fulfilling Their Tax Obligations

                              •   The TEC organization needs to strive for some
                                  continuity or consistency in how links to Federal tax
                                  information are shown by the various State agencies
                                  they have partnered with. On some State web sites,
                                  the link to information was easily identified and
                                  noted while on others the link was on sub-pages and
                                  was difficult to locate or was not there at all. While
                                  the TEC organization cannot demand from its
                                  partners where the web link is placed, an overall
                                  strategy and agreement that defines where the web
                                  link should be placed could be developed to cover all
                                  partner State agencies.
                              •   Educational products for various market segments,
                                  such as cosmetology and construction, should be
                                  made more visible to the casual small business
                                  Internet browser. These products were highly
                                  informative and easy to understand while still
                                  covering a range of tax topics. However, it took
                                  considerable research or web browsing to locate
                                  these products. The novice Internet user may not
                                  have the knowledge or time to make such a detailed
                                  search, so these items should be made more visible.

                           Recommendation

                           1. The Director, Communications, Government Liaison
                              and Disclosure, should review the marketing of TEC
                              organization products on the Internet and formulate a
                              strategy to increase their visibility. In addition,
                              innovative products found on other Internet web sites
                              should be studied to determine if they would be
                              appropriate for use by the TEC organization.
                           Management’s Response: As part of the Communications,
                           Liaison and Disclosure realignment, the Commissioner,
                           SB/SE Division, has established a new web services branch
                           under the Director, Communications, which will develop a
                           strategy for enhancing utilization of TEC organization
                           products on the Internet. Part of this strategy will include
                           methods to increase Internet visibility and identify best
                           practices from other Internet sites.

                                                                                 Page 6
        Opportunities Exist to Improve the Efforts of the Taxpayer Education and
      Communication Organization to Assist Small Businesses in Understanding and
                             Fulfilling Their Tax Obligations

                                  The Government Performance and Results Act of 19935
The Taxpayer Education and
                                  requires Federal Government agencies to establish a
Communication Organization
                                  hierarchy of goals, objectives, and performance measures
Needs to Establish Goals and
                                  applicable to the organizational units within the agency. As
Measures That Are Reflective of
                                  a result, the IRS established three strategic goals:
Its Mission
                                      •   Improve Taxpayer Service.
                                      •   Enhance Enforcement of the Tax Law.
                                      •   Modernize the IRS through its People, Processes and
                                          Technology.
                                  In 2000, the IRS implemented a new strategic planning and
                                  budgeting process that provided the framework for
                                  developing goals, objectives, and measures at the operating
                                  division level. Under this process, the operating divisions
                                  developed program plans that identified the division’s
                                  strategic goals, which were to correspond to each of the
                                  agency-wide strategic goals. These division-level strategic
                                  goals were to be tailored to the specific characteristics and
                                  needs of the individual taxpayer segments served by the
                                  division.
                                  The mission of the TEC organization within the SB/SE
                                  Division is:
                                  …to educate and inform SB/SE taxpayers and
                                  representatives about their tax obligations by developing
                                  educational products and services focused on customer
                                  needs and by providing top quality pre-filing services to
                                  help taxpayers understand and comply with the tax laws.
                                  In February 2001, the Government Accountability Office
                                  (GAO) issued a report6 on the IRS Performance
                                  Management System. During its review, the GAO reviewed
                                  various literature associated with performance management
                                  and came up with a set of characteristics that was used to
                                  evaluate goals, objectives, and performance measures (see
                                  Appendix V for an excerpt from the GAO report). We used


                                  5
                                    Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                                  sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                  6
                                    IRS Should Enhance Its Performance Management System
                                  (GAO/01-234, dated February 2001).
                                                                                                  Page 7
  Opportunities Exist to Improve the Efforts of the Taxpayer Education and
Communication Organization to Assist Small Businesses in Understanding and
                       Fulfilling Their Tax Obligations

                           these same characteristics to evaluate the goals and
                           measures set by the SB/SE Division to evaluate the TEC
                           organization during FY 2005.
                           The TEC organization officially has 5 Budget Level and
                           12 Program Level measures. It also maintained four other
                           high-level measures for FY 2005. A complete listing of the
                           measures is provided in Appendix VI but we have listed
                           some representative measures below:
                           Budget Level Measures:
                           º   Percent of Business Returns and Information Returns
                               Received Electronically.
                           º   Percent of Payments Received Electronically.
                           º   Efficiency – R-Mail.7
                           º   Number of Taxpayers Reached (Direct).

                           Program Level Measures:
                           º   Customer Accuracy Rate - R-Mail.
                           º   Number of Business Returns and Information Returns
                               Filed Electronically.
                           º   Number of Payments Received Electronically.
                           º   Number of Taxpayers Reached (Indirect).

                           A review of the program and budget level measures shows
                           that many of these measures do not directly relate back to
                           the defined mission of the TEC organization. While
                           electronic filing is both an ongoing focus and a specific goal
                           of the IRS organizationally, it is not a specific area of
                           responsibility for the TEC organization according to its
                           mission statement. In addition, the TEC organization has
                           established program measures that are not representative of
                           the work or accomplishments of its own staff but of the
                           work done by third parties. The organization has a program
                           measure for the number of taxpayers reached (indirect)
                           which is achieved by the various practitioner associations.
                           Logically, this measure is questionable because it allows the

                           7
                            Taxpayers who call the Tax Help Line (1-800-829-1040) and ask more
                           complex questions are transferred to the IRS’ Referral Mail (R-Mail)
                           Program. The R-Mail Program is designed to answer complex tax law
                           questions via telephone, email, or correspondence within 3 workdays.
                                                                                        Page 8
  Opportunities Exist to Improve the Efforts of the Taxpayer Education and
Communication Organization to Assist Small Businesses in Understanding and
                       Fulfilling Their Tax Obligations

                           TEC organization to take credit for the work of others, and
                           it is also totally dependent on those practitioner associations
                           for both measurement and accuracy.
                           The R-Mail Program is a budgetary and performance
                           measure for the TEC organization. However, this program
                           is a filing season program that, again, does not relate to the
                           TEC organization’s mission of education and information.
                           Our review showed SB/SE Division management did not
                           ensure the measures established for the TEC organization
                           could be seen as directly related to its mission and would
                           not provide management with information on the
                           accomplishments of the TEC organization.

                           Recommendation

                           2. The Director, Communications, Government Liaison
                              and Disclosure, should review the budgetary and
                              performance measures and determine if they are
                              applicable to the stated mission of the organization. If
                              the mission of the TEC organization has changed in any
                              manner, the mission statement should be updated to
                              represent the changes and the goals, objectives, and
                              performance measures should support that new mission.
                           Management’s Response: The Commissioner, SB/SE
                           Division, has developed and published a Program Letter
                           which lays out the re-scoped mission of the new TEC
                           organization, which has been renamed the Stakeholder
                           Liaison Field Operations organization. The SB/SE Division
                           is currently developing new measures that will reflect the
                           redefined goals and strategies of the Stakeholder Liaison
                           Field Operations organization.




                                                                                   Page 9
        Opportunities Exist to Improve the Efforts of the Taxpayer Education and
      Communication Organization to Assist Small Businesses in Understanding and
                             Fulfilling Their Tax Obligations

                                                                                      Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of current efforts by the
Small Business/Self-Employed (SB/SE) Division Taxpayer Education and Communication
(TEC) organization to assist small businesses to understand and fulfill their tax obligations. To
accomplish this objective, we:
I.     Reviewed the TEC organization’s current and planned actions intended to assist small
       businesses to understand and fulfill their tax obligations.
        A. Examined the TEC organization’s visibility/consistency on the Internet by searching
           various State and local government, small business, and taxation web sites.
        B. Reviewed the TEC organization’s use of Internet products for innovation and
           effectiveness and identified best practices the organization may be able to adopt.
        C. Determined the fastest growing types of businesses (e.g., franchising) and identified
           whether the TEC organization has or could partner with them.
        D. Reviewed the information/products the TEC organization provides on the Internal
           Revenue Service (IRS) web site for reliability, quality, availability, and ease of
           comprehension.
        E. Researched the TEC organization’s current marketing strategies; e.g., Internet links
           to tax information, partnerships, and outreach in the field.
II.    Reviewed the TEC organization’s existing goals and measures.
        A. Researched the TEC organization’s evaluation of the effectiveness of its efforts.
        B. Reviewed the TEC organization’s existing goals, objectives, and performance
           measures to determine if they are consistent with the IRS’ mission and goals.
        C. Reviewed the Government Accountability Office’s report on IRS efforts to develop
           agency-wide and operating division goals, objectives, and performance measures
           that support the IRS’ mission.
        D. Researched SB/SE Division goals, objectives, and performance measures.




                                                                                           Page 10
       Opportunities Exist to Improve the Efforts of the Taxpayer Education and
     Communication Organization to Assist Small Businesses in Understanding and
                            Fulfilling Their Tax Obligations

                                                                                Appendix II


                           Major Contributors to This Report

Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard J. Dagliolo, Director
Robert K. Irish, Audit Manager
Bernard F. Kelly, Lead Auditor
Denise Gladson, Auditor
Nancy Van Houten, Management Auditor




                                                                                       Page 11
       Opportunities Exist to Improve the Efforts of the Taxpayer Education and
     Communication Organization to Assist Small Businesses in Understanding and
                            Fulfilling Their Tax Obligations

                                                                          Appendix III


                               Report Distribution List
Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison and Disclosure SE:S:CLD
Director, Stakeholder Liaison Field Operations SE:S:CLD:SLF
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                               Page 12
        Opportunities Exist to Improve the Efforts of the Taxpayer Education and
      Communication Organization to Assist Small Businesses in Understanding and
                             Fulfilling Their Tax Obligations

                                                                       Appendix IV


                                Sample Interactive Calculator

This is an interactive calculator found at the following web site:
https://www.fsafeds.com/fsafeds/fsa_calculator.asp




                                                                             Page 13
       Opportunities Exist to Improve the Efforts of the Taxpayer Education and
     Communication Organization to Assist Small Businesses in Understanding and
                            Fulfilling Their Tax Obligations

                                                                              Appendix V


              Excerpt From a Government Accountability Office Report

The following is an excerpt from the Government Accountability Office (GAO) Report entitled
IRS Should Enhance Its Performance Management System (GAO/01-234, dated February 2001).




                                                                                    Page 14
        Opportunities Exist to Improve the Efforts of the Taxpayer Education and
      Communication Organization to Assist Small Businesses in Understanding and
                             Fulfilling Their Tax Obligations

                                                                                                  Appendix VI


               The Taxpayer Education and Communication Organization’s
               Budget and Performance Level Measures – Fiscal Year 2005

Budget Level Measures:
º   Percent of Business Returns Filed Electronically (Quarterly).
º   Percent of Information Returns Filed Electronically.
º   Percent of Payments Received Electronically.
º   Efficiency – R-Mail.1
º   Number of Taxpayers Reached (Direct).
Program Level Measures:
º   Percent Taxpayer Education and Communication (TEC) Full-Time Equivalents2 to Total
    Small Business/Self-Employed Cross Unit Support.
º   Customer Accuracy Rate - R-Mail.
º   Number of New Voluntary Agreements.
º   Number of Business Returns Filed Electronically (Quarterly).
º   Number of Information Returns Filed Electronically.
º   Number of Payments Received Electronically.
º   Percent Federal Tax Deposit Payments Received Electronically (Electronic Federal Tax
    Payment System).
º   Number of Taxpayers Reached (Indirect).
º   Employee Satisfaction – TEC.
º   TEC Customer Satisfaction – Activity/Event.
º   TEC Customer Satisfaction – Rate Our Products.
º   TEC Customer Satisfaction – Stakeholder Relationship Management.
Other Internal Measures for Fiscal Year 2005:
º   Potential Revenue of the TIP/TRAC (Tip Reporting Alternative Commitment) Program and
    Centralized Withholding Agreements.
º   Number of Lead Development Referrals.
º   Number of Electronic 1040 C, E, and F Filers.
º   Number of Viewings of Tax Talk Today.

1
  Taxpayers who call the Tax Help Line (1-800-829-1040) and ask more complex questions are transferred to the
IRS’ Referral Mail (R-Mail) Program. The R-Mail Program is designed to answer complex tax law questions via
telephone, email, or correspondence within 3 workdays.
2
  Full-Time Equivalent (FTE) is a measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the
number of compensable days in a particular fiscal year. For Fiscal Year 2004, 1 FTE was equal to 2,096 staff hours.
For Fiscal Year 2005, 1 FTE is equal to 2,088 hours.
                                                                                                          Page 15
  Opportunities Exist to Improve the Efforts of the Taxpayer Education and
Communication Organization to Assist Small Businesses in Understanding and
                       Fulfilling Their Tax Obligations

                                                                 Appendix VII


              Management’s Response to the Draft Report




                                                                       Page 16
  Opportunities Exist to Improve the Efforts of the Taxpayer Education and
Communication Organization to Assist Small Businesses in Understanding and
                       Fulfilling Their Tax Obligations




                                                                       Page 17
